Nos. 19-351,
19-351, 19-520
19-520
FEDERAL REPUBLIC OF GERMANY,
GERMANY,
A FOREIGN
FOREIGN STATE, AND STIFTUNG
STIFTUNG
PREUSSISCHER
PREUS SISCHER KULTURBESITZ,
KULTURBESITZ,
AN INSTRUMENTALITY OF A FOREIGN
FOREIGN STATE,
STATE,
Petitioners
Petitioners and Conditional Cross-Respondents,
Cross-Respondents,
v.
V.
ALAN
ALAN PHILIPP,
PHILIPP,
GERALD STIEBEL,
STIEBEL, and JED LEIBER,
Respondents
Respondents and Conditional Cross-Petitioners.
Cross-Petitioners.
CERTIFICATE OF SERVICE
SERVICE
I, Nicholas M. O'Donnell hereby certify
certify that I am a member in good standing of the bar
of this Court and that on this day, pursuant to Rule 29 of the Rules of this Court, I will cause to
be sent from Boston, MA and to the Supreme Court one (1) package
package containing one (1) copy of
the SUPPLEMENTAL BRIEF OF RESPONDENTS AND CONDITIONAL CROSSPETITIONERS
PETITIONERS in the above entitled case. The Petitioners
Petitioners and the Office
Offrce of the Solicitor
Solicitor General
will also by served by Priority Mail this day. Packages will be addressed to the following:
following:
Jonathan
Jonathan M. Freiman
Freiman
Counsel of Record
Tahlia Townsend
Benjamin M. Daniels
Daniels
David R. Roth
WIGGINS
WIGGINS AND DANA LLP
265 Church
Church Street
P.O. Box 1832
1832
New Haven, CT 06508-1832
06508-1832
jfreiman@wiggin.com
jfreiman@wiggin.corn

June 8,
2020
8,2020

Noel J. Francisco
Counsel of Record
Joseph H. Hunt
Edwin S. Kneedler
Kneedler
Colleen E. Roh Sinzdak
Sharon Swingle
Casen
Casen B. Ross
Joshua K. Handell
DEPARTMENT OF JUSTICE
Washington, D.C. 20530-0001
Washington,
20530-000 1
Supr eme C t Br i efs @us doj. gov
SupremeCtBriefs@usdoj.gov

icholas M. 0

.nnell

